<html>
<title> - EMANCIPATION HALL: A TRIBUTE TO THE SLAVES WHO HELPED BUILD THE U.S. CAPITOL</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  EMANCIPATION HALL: A TRIBUTE TO THE SLAVES WHO HELPED BUILD THE U.S. 
                                CAPITOL

=======================================================================

                                (110-71)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 25, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                    U.S. GOVERNMENT PRINTING OFFICE
38-171                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY,               Virginia
Pennsylvania, Vice Chair             CHARLES W. DENT, Pennsylvania
TIMOTHY J. WALZ, Minnesota           JOHN R. `RANDY' KUHL, Jr., New 
STEVE COHEN, Tennessee               York
JAMES L. OBERSTAR, Minnesota         JOHN L. MICA, Florida
  (Ex Officio)                         (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Wamp, Hon. Zach, a Representative in Congress from the State of 
  Tennessee......................................................     7
Jackson, Jr., Hon. Jesse, a Representative in Congress from the 
  State of Illinois..............................................     7

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Cohen, Hon. Steve, of Tennessee..................................    16
Jackson, Jr., Hon. Jesse L., of Illinois.........................    17
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    19
Wamp, Hon. Zach, of Tennessee....................................    21

[GRAPHIC] [TIFF OMITTED] T8171.001

[GRAPHIC] [TIFF OMITTED] T8171.002



 EMANCIPATION HALL: A TRIBUTE TO THE SLAVES WHO HELPED BUILD THE U.S. 
                                CAPITOL

                              ----------                              


                      Tuesday, September 25, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 2253, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chairman of the Subcommittee] Presiding.
    Ms. Norton. I am very pleased to welcome to today's hearing 
Congressman Jesse Jackson, Jr., and Congressman Zach Wamp, who 
are key sponsors of the resolution to name the Great Hall, 
located at the Capitol Convention Center, "Emancipation Hall."
    The U.S. Capitol and its iconic dome are symbols of 
representative democracy in our country. As the United States 
has grown and changed over its 225-year history, so has the 
Capitol. The Capitol Building or the, quote, "temple of 
liberty," as it was known early on, ironically was built, in 
large part, by, quote, "Negro hires," a term used to indicate 
that the enslaved blacks who helped build the Capitol were 
hired out, not hired. More accurately, they were leased or 
contracted out by their owners to do the work, essentially a 
contract between the Congress of the United States and 
slaveholders, with all of the funds going directly to the 
pockets of the slave owners.
    The slaves who helped to build the Capitol came not only 
from Southern States like Maryland and Virginia; some were 
property of residents of the Nation's capital, itself, where 
slaves lived and worked until Congress abolished slavery in the 
District in 1863, only 9 months before the Emancipation 
Proclamation. Slaves here and in the rest of the United States 
often were skilled craftsmen who were profitable not only to 
the slave owners' households but also for the skills they could 
bring to others as Negro hires.
    One of the many ironies of slavery is that, when 
emancipation finally arrived, slaves throughout the United 
States had the entire skillset for any project in our country. 
They were an indigenous workforce, ready and anxious to work. 
Ubiquitous discrimination across the country, however, confined 
blacks to joblessness unless no whites, including newly arrived 
immigrants, were available. A bitter freedom for slaves who 
wanted nothing more than their freedom and the ability to work 
became a national tragedy.
    A major hall in the new Capitol Building 200 years later 
provides but a token of the respect and gratitude these slave 
laborers never received. Today, little remains on Capitol Hill 
that bears the imprint of slave labor. Much of the carpentry 
work, including the mahogany pine and walnut doors, has been 
lost to fires, rebuilding and remolding. History wiped away the 
work of these slaves without so much as a marker to indicate 
their contributions. The history of the slave contributions has 
been suppressed even in official histories of the Capitol until 
recent years.
    We are grateful to the bipartisan taskforce, where 
Representative John Lewis, among others, served as a member, 
that was established several years ago in anticipation of the 
recognition of the contributions of slave labor, as envisioned 
by House Congressional Resolution 130.
    In 1998, following the shooting death of Capitol Police 
officers, the first in the Nation's history, I introduced H.R. 
4347, the Jacob Joseph Chestnut-John Michael Gibson United 
States Capitol Visitor Center Act of 1998. The bill provided 
for enhanced security on the Capitol grounds and for an 
appropriate place to welcome our constituents, taking into 
account their security, health and comfort.
    Nine years later, I had the pleasure of touring the 
graceful new addition to the Capitol, the Capitol Visitor 
Center. About 97 percent completed, finishing touches are in 
progress, such as the installation of bronze framework around 
the doors and carpet installation, of cafeteria countertops and 
millwork, plaster and paint, along with a bronze handrail being 
applied to the three-level spiral staircase that will welcome 
visitors in elegant style to this outstanding facility. The 
facility contains so much history and so many new amenities 
that it is nothing less than a new, premiere tourist 
destination that we in the District of Columbia particularly 
welcome.
    The Congress and the Nation depend on this city to be 
welcoming to the constituents of Members of the House and 
Senate and to visitors from around the world. The District is, 
indeed, one of America's preeminent tourist destinations, and 
consequently, there is a perfect synergy between what Congress 
and the District of Columbia want for tourists who come to the 
city to visit historic sites.
    City officials and I are working closely with Capitol 
officials on facilitating getting millions of new visitors, 
beyond the 3 million we already get, to this new venue that 
offers a modern setting in which to view the history of 
Congress and our contributions as a body to our country. 
Included in this landmark will be an exhibition gallery, a 550-
seat cafeteria, gift shops and visitor orientation theaters.
    At nearly 580,000 square feet, this project is the largest 
in the Capitol's 212-year history. No longer will visitors 
stand in long lines and arrive at the beginning of their 
Capitol tour tired, hungry and often with little knowledge of 
what they are about to see. Not only will the new center 
provide greater security, it will afford visitors an enjoyable 
and educational experience that would be incomplete if the 
untold story of the building of the Capitol were to remain 
untold.
    Naming the Great Hall for the long, unrecognized 
contributions of slaves who built our Capitol will, in some 
very small way, honor the importance of their contributions to 
their country and our determination to continue to erase the 
conditions that derive from that period in our history.
    I am pleased to recognize the Ranking Member for any 
statement he may have.
    Mr. Graves. Thank you, Madam Chair.
    I am, actually, going to yield to the Ranking Member of the 
Full Committee for his statement, particularly in the essence 
of time.
    Mr. Mica. Well, thank you. Thank you both, Mr. Graves and 
Ms. Norton, and thank you for conducting this hearing.
    As I have said to Ms. Norton and Mr. Graves in the past, I 
think it is important that our Committee assume jurisdiction 
and responsibility, which we have always had over this project. 
And I want to take a few minutes to talk about the proposal 
before us today, naming the Great Hall.
    Let me reminisce a bit. Back in the 1980s, I was the Chief 
of Staff and spent a lot of time studying the history for 5 
years of the Capitol Building, and I learned a lot about its 
history. When I came as a Member in January of 1993--and even 
back then, as many of you and, I think, as the Chairlady 
referred to it in her opening statements, we all saw the lines 
in heat, rain, snow, sleet, that millions of our--I call them 
the "owners." When they showed up, they did not get very good 
treatment. They got left out in the cold, so to speak.
    And then I learned a little bit about former proposals. 
When they extended the east front out, they talked about either 
putting a visitors' center in or a parking garage for better 
convenience. Ironically, actually, when a visitors' center was 
proposed, it was shot down by Republicans, I think led by Newt 
Gingrich, who, at the time, were running huge deficits and did 
not want all public money to go into financing a project.
    So I came on the scene in 1993, and one of the things I 
remember as a Member and being someone who loved history is I 
went over to the Library of Congress, and we have a great 
entre. In those days, you could actually go back in the 
stacks--that has been limited now--and you could see the 
incredible treasures that we have firsthand and actually take 
some of the books. And they have far more than books. I 
remember the maps, their map section. They had the contents of 
Lincoln's pockets when he was assassinated over there. There is 
just an incredible wealth of treasures that the average citizen 
never gets to see, nor did we have any exhibition space to show 
those things.
    I went down to the National Archives, and I remember seeing 
the Emancipation Proclamation, which was kind of interesting, 
and they told me it is very rarely shown because rare documents 
like that are only taken out and put in the most protected area 
because they are rare, rare, rare national treasures and 
historic treasures. I thought, what a shame that, first, for 
the people who this is all done for by their government, they 
do not get a chance to see it, and then the great treasures, we 
are the keeper of, and they do not get to see. Again, I 
remember specifically the Emancipation Proclamation.
    So, when I started looking at my legislative priorities, 
the first one was to build a visitors' center, and I did not 
get a very good reception. We were in the minority in the 
beginning. Finally, we took over, and I introduced several 
measures. And actually, they were considered in two hearings. I 
think one was in 1995, right after we took control, and in 
1998. I still had the stumbling block of Newt Gingrich and 
public funding. We were starting to get the budget in balance, 
and the deal that we cut with Newt Gingrich to make the 
visitors' center go forward was to raise half the money 
privately and half publicly.
    At that time, the visitors' center--well, originally, it 
was $78 million, and then when George White put in the proposal 
and went back and looked at it and did some juggling, he came 
in slightly over $100 million, I remember. I said, "George," I 
said, "I cannot go to the Public Works-Transportation Committee 
meeting and promote a project that costs $100 million. So you 
had better get back there and cut some of this out. We can add 
it in later." So I think he came in and brought it in, in about 
1998, at one of those hearings.
    But in any event, we launched a visitors' center with that 
deal. We, actually, had a group that raised the money. The last 
meeting that was held was on the evening of September 10th. 
That was in the Speaker's dining room. I attended that. It was 
September 10, 2001, which, ironically, put me in the Pentagon 
the next morning with Donald Rumsfeld. That is another story.
    I point this out to give you some of the history of my 
involvement. I was appointed to the Capitol Preservation 
Commission until just January, so I have seen the project from 
the beginning and probably have more of the historical 
knowledge.
    It is true there were very few votes taken. The one we did 
to authorize the project was probably the longest in history. 
It lasted almost 30 days because of all of the prima donnas, as 
I call them, on the Preservation Commission, who were chairmen 
and leadership of key committees. And the leadership of the 
House and Senate had to meet and approve the project, which we 
did in a vote, again, that was extended for some time. That 
brings us up to building the center and some of the purpose for 
that.
    Now, I am not opposed to naming a room or a space after the 
slaves who helped build this facility. I do not think that the 
Great Hall, though, is the appropriate hall. And I think that 
it would be more appropriate if you consider--if you want to 
look at the historic context of what I think would be 
appropriate, the exhibition hall--and some of this space was 
designed by Mr. Applebaum.
    I remember my first meeting with Mr. Applebaum when he was 
chosen to design this. Of course, he did the Holocaust Museum. 
I said, "Do you know what is going to go in this space?" then I 
described to him some of the documents like the Emancipation 
Proclamation and things that are rarely seen. I said, "Have you 
been to the Library of Congress to see any of the treasures 
that are down in the National Archives?" he said, "No." I said, 
"Well, I am going to terminate this meeting with you, because I 
want you to go down and see those things, these treasures, that 
belong to the people and that are some of our most valuable 
things and have them on display." And he went back, and he did 
see it, and then we met again, and he designed some of the 
spaces, as you know.
    And I think that, given--and I will tell you a little bit 
more of the history that I think is important in this--I think 
that, actually, the Great Hall is an inappropriate place to 
name after those who sacrificed through slavery. The Great 
Hall, actually, will be the repository of the cast in plaster 
that was done by Thomas Crawford. Actually, we put in skylights 
so you could see the pediments of the building. Ironically, you 
will see in both of those instances the decisions by someone 
who had no respect for slavery, who, in fact, led the whole 
cause of the Confederacy based on keeping the enslavement of 
people, who was the one who had the biggest impact on how we 
view the Capitol today, the extension, the 1850s extension of 
the House and the Senate. And the person who did that was at 
first a Senator and an appropriator; that was Jefferson Davis. 
And then Jefferson Davis, ironically, was the Secretary of War 
when the building was built.
    If you go back and look at the history, Thomas Crawford was 
one of the most accomplished sculptors and was picked for the 
responsibility of sculpting both the pediment of the Senate and 
also the Statue of Freedom that we have on the top. His studio 
was in Rome, but he was an American. Actually, you could go 
back and look at the documents. Jefferson Davis altered the 
statues--the pediment you see of the Senate and the Statue of 
Freedom, because when he originally designed those figures, he 
had the egalitarian cap which stood for liberty, fraternity and 
equality. He did not favor equality.
    So, ironically, you will have staring in the visitor's eye 
the symbols of Jefferson Davis, who was not very inclined to 
have the Nation's Capitol and that view you will be seeing have 
anything to do with the emancipation of the slaves.
    In opposition to that, you have an Exhibition Hall here 
which very few folks--I remember back in the 1980s, I had heard 
of Washington's tomb, but I never knew where it was, and I did 
not know that it housed the catafalque of the great 
emancipator, Abraham Lincoln. You know, in the space that we 
have designed, at the very center of the space is going to be 
this little niche, and in that niche, we are going to place the 
catafalque of the great emancipator, Abraham Lincoln.
    So, within that space, you will have something that people 
have not seen, except on rare occasions, in the ceremonial 
death of some famous American. And you will also have the 
ability to show that document that was part of the motivation 
for this space that people could see.
    So that would be my first preference, to name a hall, which 
truly will, for generations, be able to display the documents 
of freedom for slaves and for all of the rights and other 
things that we have. Then, secondly, you will also have the 
funeral of the great emancipator there. So that would be my 
first consideration and suggestion.
    The second is, this is where the emancipators of the future 
will be, and that is our successors. It was not Congress that 
freed the slaves; it was Abraham Lincoln, by his proclamation. 
But we do have the largest auditorium, which will be where the 
House of Representatives and future joint sessions will meet as 
we make repairs and other renovations to the existing spaces.
    I gave you my first preference, which has both its roots in 
the history of the building and in the evolution of the 
visitors' center, and then I gave you my second choice. So 
those are some of the points that I wanted to make today.
    I have no objection to, again, recognizing those. There are 
many--Joe is here--there are Italian Americans, there are 
indentured whites who also built the Capitol. I am very proud 
of my Italian American heritage and Brumidi, who is often 
mentioned, but he is only one of numerous people who 
contributed to the Capitol, including those who were enslaved. 
So I do feel it is appropriate--I do--to name a significant 
space in this new center, and those are my thoughts.
    I appreciate your allowing me to go a little bit beyond to 
share some of the history, because I think it needs to be 
recorded. And thank you for allowing me to participate. I look 
forward to working with both of you on the Committee and on the 
Full Committee in the House on this project.
    Thank you.
    Ms. Norton. I thank the Ranking Member for his remarks. We, 
certainly, will look more closely at what you are saying.
    I do want to say for the record that Congress recognized 
that the Capitol was built by working people, but when the 
study committee was set up--and it was set up by the prior 
Congress before the present majority came here--it was set up 
with the understanding that there had to be special recognition 
for people who were slaves and who built the Capitol.
    No one wants to take anything from working people who, in 
fact, contributed to building this great Capitol. And whenever 
we speak about the Capitol, we say that the slaves were among 
others, including free blacks and many white people.
    The circumstances under which black craftsmen contributed 
to this building has never been recognized, even though the 
contributions of most Americans have managed to be recognized 
in some form or fashion somewhere. Thus, it was thought by 
Congress that the slaves should be singled out. And that is not 
because they were black; it was because they had been slaves 
and had made this special contribution to representative 
democracy.
    Mr. Cohen?
    Mr. Cohen. Thank you, Madam Chair. I am pleased to be here 
and to speak in favor of the legislation that my colleague from 
Tennessee, Representative Wamp, and my colleague from Illinois, 
Representative Jackson, have introduced.
    It is entirely fitting and appropriate that there be a 
special recognition of what slaves gave, not only to this 
Capitol but to this country. The contributions of slaves to 
this country's good fortune have not been recognized, and most 
people do not know them. And by naming this hall the 
Emancipation Hall and having the story in this hall, where so 
many Americans come to reflect on their heritage and this great 
country and to understand the foundations and to see where 
slavery contributed and to understand more about slavery and 
the role it played in this country and the lack of remuneration 
or consideration ever given to people, obviously, who were 
slaves, is important and appropriate.
    You get a new country and you advertise,you know, "Come 
over here. We are going to take land from the Native American 
Indians, and we are going to give you an opportunity to have 
slave labor." It is a heck of a way to start a country or a 
business. You know, you get land from somebody else and get 
labor that does not cost you anything. Great start. That is a 
great way to boost a country.
    People have to understand that is how this country really 
got its great start, especially the southern part of the United 
States. And it was not just the farmers; it was the folks who 
shipped the cotton, who insured the cotton, who produced the 
clothes. It was basically the railroads, the shipping industry, 
everybody. And that is who were the main cogs in your economy, 
then: the railroads, the steamship companies, the Merchant 
Marines, as well as the landed folk and the traders. So they 
had a pretty good opportunity to benefit from slave labor, and 
people need to learn about that and see it.
    I commend each of you for bringing this bill. It is the 
right thing to do. It has 227 cosponsors. I hope it has 435 
votes.
    Thank you, Madam Chairman.
    Ms. Norton. Thank you very much, Mr. Cohen.
    Could I ask our two witnesses if they would come forward 
now?
    Frankly, proceed in whatever order suits you.

TESTIMONY OF HON. ZACH WAMP, A REPRESENTATIVE IN CONGRESS FROM 
      THE STATE OF TENNESSEE; HON. JESSE JACKSON, JR., A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Wamp. Thank you, Madam Chairman. Out of my friend Jesse 
Jackson's courtesy, I will go first. Let me just say that I 
have a written statement for the record, but I do not want to 
read it. I just want to speak from the heart to you, Madam 
Chairman.
    Thank you so much for calling this hearing, and I would 
encourage you to move the bill. Do not wait on any 
appropriations bill. When an idea this good surfaces, we all 
need to come together. We got 227 cosponsors in 2 days. We 
could have gotten probably 400 or more if we had just wanted to 
have cosponsors, but we just wanted enough cosponsors to get 
you to call a hearing and to consider this bill.
    I served on this Committee years ago before I went to the 
Appropriations Committee, and I admire you so very much, and I 
thank you so much, Madam Chairman, for this opportunity.
    And I want to recognize the distinguished Ranking Member of 
the Full Committee, Mr. Mica, who spoke, and, of course, on the 
Subcommittee, my friend Sam Graves. But I would beg to differ 
with the distinguished Chairman of the Full Committee. I do 
want to say for the record that the quality of the CVC is, in 
large part, due to his commitment to this. And the quality is 
there; the cost, obviously, is more.
    I am the Ranking Member of the Legislative Branch 
Appropriations Subcommittee, which is now charged with bringing 
this project in next year for landing and in trying to bring it 
in as close to the current budget and timeline as we possibly 
can. It got bigger and more costly than we wanted, but I have 
taken, in the last 13 years, over 1,700 groups through the 
Capitol. I do all my tours myself, and I love it. I will do one 
tonight. I had 250 college students here this weekend, and I 
took them through the Capitol. I tell a lot of stories and 
study a lot of the history, as Mr. Mica does.
    And one time, about 10 years ago, I was between the 
concrete drum of the Rotunda and the exterior, going up for a 
dome tour, and I stopped and asked one of the red-coat tour 
guides coming down, "What are these little hooks and hangers 
that are hanging all the way around the perimeter of the dome?" 
he said, "Man, that is a great question. Few people ever ask 
about it, but that is where they hung their lanterns at night 
while people slept here while building the dome of the 
Rotunda." And he said, ironically, at that time, it would have 
been a combination of slave labor and the Union soldiers who 
were fighting for their freedom on the battlefield. They 
rotated in and out of Washington for respite off the 
battlefield, to come here. And they worked side by side. And he 
said, "Just imagine the Jew's harp playing and them kind of 
spend the time together, sleeping there, to go back in to build 
the dome, in the depths of the Civil War, to complete the 
Capitol in its current form."
    This CVC is 580,000 square feet. The current Capitol is 
about 770,000 square feet. So we are dramatically, by about 
two-thirds the size, increasing the scope of the Capitol. Well, 
the new space that, unfortunately, is referred to as the Great 
Hall is 20,000 square feet of floor space. That is almost three 
times the size of the floor space of the Rotunda. This is the 
largest room, and it is going to actually be the room with the 
most people in it. Once the CVC opens the Capitol in totality, 
this room will be the room with the most people in it, because 
that is where all of the visitors will be staged as they enter 
the Capitol.
    What more important way to honor this very important part 
of American history than to name this hall Emancipation Hall? 
This is where it should be honored in the most meaningful way 
in this grand hall. Right through the tunnel at the Library of 
Congress is the Great Hall. It is the foyer of the Library of 
Congress. It has been for over 100 years. It is one of the most 
ornate spaces in the United States of America.
    From the first hearing we held in our Appropriations 
Subcommittee in January forward, everyone agrees--the architect 
and everyone involved--that you cannot have two rooms named the 
Great Hall on each end of the tunnel. That is mass confusion. 
Everyone says that is a mistake. It should not be called the 
Great Hall.
    So, obviously, step one: It should not be called the Great 
Hall because that is duplicative, and it is going to be very 
confusing, so we need to change the name.
    Number two, then what will it be called? And that is 
obviously the jurisdiction of this Subcommittee. But 
emancipation is the proper way to do this. This is bigger than 
any of us. That is why there is so much support for this, 
because this is bigger. You may say, "What is a white guy from 
the South doing offering Emancipation Hall?" hey, I think that 
is pretty cool. That is the way it ought to be. We need 
reconciliation, healing. This brings about justice.
    This, actually, may be a bigger way to honor them than you 
would think. I do not think it is a small thing. I think it is 
a big thing. I think every person who comes through this 
Capitol from that day forward is told the story of how 
important this chapter in American history was to emancipate 
people, to free them, to treat them equally. In this hall, you 
look up through the glass, and you see that dome, and you know 
what it meant. You knew that Lincoln was petitioned during the 
Civil War to stop the construction of the dome because the cast 
iron was depleting our ability to prosecute the war, and he 
said, "No. The world is watching, and we are divided, and the 
dome will be a symbol to the world that we are still a union," 
and he persevered and emancipated. He was white, too.
    We should come together through this process. We should use 
this as an opportunity to bring the Congress to a better place 
so there can be healing and reconciliation and so that we can 
honor this labor and these people, these great Americans who 
did this who have never been honored. This is bigger than us.
    Please, do not delay. Please, report this bill 
expeditiously to the floor. Take it to the Senate. Let us do 
this together. Let there not be a division of all of the 
lessons learned from the divisions of history. We should not do 
this now. That is why I am so honored to be a partner with 
Jesse Jackson, Jr., and to do this. Friends from across the 
aisle, do this together.
    I yield to him.
    Mr. Jackson. Madam Chair, Ranking Member Graves and Members 
of the Subcommittee, and Mr. Mica, I am pleased to testify in 
support of legislation to rename the main hall of the Capitol 
Visitor Center as Emancipation Hall.
    In June of this year, I was proud to team up with my good 
friend and colleague Zach Wamp in offering an identical measure 
in the Legislative Branch Appropriations bill. And while that 
bill has passed the Congress, we acknowledge the jurisdiction 
of this Committee and return to this Committee with more than 
227 Members of Congress who support moving independent 
legislation to advance this proposition.
    When I spoke to the Appropriations Committee in June, I 
urged my colleagues to begin a new chapter in history and to 
fight for emancipation. Emancipation is the great theme of 
Americans' still unfolding story. Unlike what Mr. Mica 
indicated in his remarks, it is not a side story, it is not a 
side room. It is central to understanding America, it is 
central to the understanding of this institution, and it is 
central to the development of this building and this democracy.
    As the future entryway and focal point for the millions of 
visitors each year to the Nation's Capitol, Emancipation Hall 
will serve and stand as a memorial to our country's struggle 
and journey from slavery to freedom. Lincoln's first and second 
inaugural address occurred on the stairs directly above 
Emancipation Hall. The Lincoln Memorial has both of those 
speeches in great detail, indicating the great dilemma that 
confronted his presidency, not only in the construction of the 
Capitol, itself, but in the maintenance of the Union. In fact, 
saving the Union and making the Union more perfect were his 
penultimate and primary goals.
    Emancipation--that preeminent event in American history, 
that definitive moment, that contemporary memory that tends to 
let go and long since escape--is not included in the mural in 
the Rotunda, depicting the rise of our Nation. In fact, in the 
Capitol Rotunda, where pilgrims arrive on one end of the mural, 
you follow the story all the way around to the Wright Brothers. 
There is not a single African American or person of color, 
other than Native Americans, in that story. They are completely 
left out of the story of America. For the millions of visitors 
who visit our Capitol Rotunda, the story of our journey from 
slavery to freedom is not depicted.
    Emancipation is forgotten as we race up the Capitol stairs 
every day to vote. They are made out of granite from Georgia's 
venerable and infamous Stone Mountain, where the Ku Klux Klan 
was born.
    The Senate Chamber, the old Senate Chamber, for the 
millions of Americans who visit our Capitol, is known for one 
primary event: the beating of Senator Charles Sumner by Preston 
Brooks, a Congressman from South Carolina. And the book still 
marks the location in that room where Charles Sumner was caned.
    Old Statuary Hall, never divided between Democrats and 
Republicans, it is divided primarily by this side of the aisle 
and that side of the aisle as free States and slave States. For 
the millions of visitors who visit Statuary Hall, they are told 
of a single story--the acoustics of the building, the acoustics 
of the room, how to talk to the floor, and how to run to the 
other side of the room and hear your voice echoing off of the 
ceiling--not the history of how slaves and States were admitted 
to the Union, one free and one slave, not the California 
compromise, not the compromise of 1832, not the compromise of 
1834, not the secession of States from the Union, but for the 
millions of Americans who enter our Statuary Hall, if you stand 
right here and talk to the floor and if you run to the other 
side of the room, you can hear the echo chamber of the 
acoustically sound Old Statuary Hall.
    The Old Supreme Court Chamber is known for three things--
the Amistad Africans, the Dred Scott decision, the Plessy v. 
Ferguson decision--all decided in this building. To this day, 
the most scurrilous part of Chief Justice Taney's record was 
his decision in Dred Scott. For the most part, the idea of 
building a more perfect union occurred under Taney's Supreme 
Court Chief Justiceship, but his entire reign on the Court was 
profoundly affected by one infamous decision, Dred Scott.
    So race, slavery, emancipation is not a room, like the 
Ranking Member said, off to the side of the Capitol. It is 
central to who we are as a country. Yet, the story in the 
Capitol Rotunda, in Statuary Hall, in the Old Supreme Court 
Chamber, in the Old Senate Chamber--in every way that we can 
possibly find, we suppress the story. Emancipation Hall is 
ignored. Emancipation is ignored in Statuary Hall, as we count 
among our honored dead Confederate President and Democrat 
Jefferson Davis; Confederate Vice President and Democrat 
Alexander Hamilton Stephens; Confederate Democrat General 
Robert E. Lee, still wearing his Confederate States of America 
uniform; and Confederate Democrat General Joseph Wheeler, still 
in uniform.
    But a little-known party founded in Ripon, Wisconsin, in 
1854 came into existence, the Republican Party, against this 
fundamental Democratic Party philosophy of the idea of ending 
the peculiar institution of slavery, emancipating them and 
building a more perfect union for all Americans. The idea of 
Emancipation Hall is perfectly suited to be introduced by a 
gentleman from the South, Mr. Wamp. The idea that a Republican 
would fight for emancipation is a very historically accurate 
process, and I congratulate the gentleman.
    Instead of visitors getting that information, we reduce the 
story of our Nation--that is, how States have gone from slavery 
to freedom--into a conversation about acoustics. No one wants 
to deal with the painful past. So, instead, we suppress the 
story, and we suppress everyone's history. We must tell an 
honest and informed story of all that has come before us.
    The United States Congress has the power and the authority 
to tell the real story. We can do better by capturing the 
fullness of the meaning of our Republic's history in this 
Capitol. We must tell visitors about the story of freedom and 
the costly course of emancipation. Who would we be without 
emancipation? Our House divided would not stand. We would not 
have the ability or the moral authority to fight for democracy 
around the globe. We would not have, as Abraham Lincoln said, a 
new birth of freedom so that a government of the people, by the 
people and for the people shall not perish from the face of the 
earth.
    Placing Emancipation Hall in the Capitol Visitor Center is 
a small step, but a significant step, on our journey toward 
freedom from the ongoing struggles and problems associated with 
the legacy of slavery. This works largely because we are still 
not comfortable talking about this shameful legacy, talking 
about race, talking about class. Fifty years ago today, nine 
students in Little Rock, Arkansas, forced us to talk about race 
and class. Last week, six students in Jena, Louisiana, were 
supported by thousands of marchers who forced us to talk about 
race and class.
    Emancipation Hall will remind every American and everyone 
from around the world who visits our Capitol of our Nation's 
continuing commitment to move from oppression to equality, from 
division to union, a more perfect union. This hall will stand 
as a testament to the fact that the long arc of history bends 
toward freedom and justice.
    I would like to close, Madam Chair, on just two small 
points. Just a couple hundred yards from the entrance to 
Emancipation Hall, our forebears, our forefathers, placed a 
marker to the significance of this particular event. Just 200 
yards from the entrance to Emancipation Hall is the following 
statue--the following monument on the circle directly in front 
of the new Capitol Visitor Center.
    On this date, April 4th, Abraham Lincoln visited Richmond. 
He went to the Confederate White House and sat on the 
President's chair. As he walked the streets of Richmond, crowds 
gathered around him, including former slaves who proclaimed 
him, among other things, and I quote, "the great messiah." 
Overwhelmed by rare emotions, Lincoln said to one black man who 
fell on his knees in front of him, quote, "Don't kneel to me. 
This is not right. You must kneel to God only and thank him for 
the liberty you will enjoy hereafter." Describing these events 
in Richmond from a desk in the Confederate Capitol to the 
Philadelphia press shortly after Gettysburg was its reporter T. 
Morris Chester, a black man.
    Why do I not, as the Chairman, try to indicate and support 
the idea of Liberty Hall? Because, when Lincoln uses the word 
"liberty" here, he is talking about the human condition of 
moving from chattel slavery to liberty. The word "liberty," in 
contemporary American English, has taken on a different 
meaning. "liberty" in today's meaning has nothing to do with 
the transition of people from a particular condition to 
freedom. It has something to do, for example, with our ability 
as a Nation--Blackwater now argues that they have a liberty, a 
right, to do business in Iraq. General Motors, yesterday, 
announced their liberty, their right, to move their plants to 
other parts of the world and take advantage of workers. 
"liberty" today takes on a different meaning than the liberty 
for which Lincoln was talking about when this man fell to his 
knees. And therefore, freedom and emancipation more 
appropriately and more accurately capture precisely what Mr. 
Lincoln was talking about when he made this statement, which 
serves as a marker to the visitors' center that we seek to 
build as the 110th Congress, and name.
    Lastly, the Congress of the United States is responsible 
for emancipation. The Congress did vote for emancipation. The 
first 13th Amendment to the Constitution of the United States, 
which passed this institution before the Civil War and before 
the secession of States from the Union, authorized the 
maintenance and the continuance of the peculiar institution of 
slavery from then until the indefinite future. With the 
secession of the States from the Union, such an amendment to 
the Constitution, even though it passed the Congress by the 
necessary votes, was never allowed to be added to the 
Constitution.
    Then, in 1863, when President Abraham Lincoln passed the 
Emancipation Proclamation in executive order, it freed the 
slaves in some States but kept them in place in other States, 
and there is great debate as to whether or not that 
Emancipation Proclamation actually had the power to free the 
slaves. After Abraham Lincoln was assassinated, this Congress 
then voted again on a new 13th Amendment with completely new 
language. And it is that 13th Amendment that Southern States, 
in order to be brought back into the Union, had to ratify, 
which laid the foundation for the contemporary 13th Amendment, 
the 14th Amendment and the 15th Amendment to the Constitution.
    And therefore, it is appropriate that this Congress 
recognize that this is not an act by Lincoln; it is an act by 
the Congress to change the fundamental founding document of 
this Nation to ensure that emancipation would become part of 
who we are, going forward.
    So I conclude just by saying, Madam Chair, that this bill 
is appropriate before this Committee, but most importantly, Mr. 
Counsel and Members of the Republican Party who are still in 
attendance, it is important that this bill move through the 
Congress without objection. It is not to be divided, Democrats 
and Republicans, blacks and whites. This should not be the 
story that emerges out of the 110th Congress.
    I believe we can pass this bill because we have sufficient 
numbers to pass it as a stand-alone piece of legislation, but 
this legislation should leave this Congress unanimous. And we 
should not open up a national debate about who is a racist, who 
is not a racist because they did not understand the history and 
the context and the significance of this event. And that is why 
the appropriators, themselves, decided to move on it. And it is 
my hope that this Committee will give it thoughtful 
consideration, move it out unanimously, and let us move this 
chapter forward.
    I thank the gentlechairman.
    Ms. Norton. I thank both of you for, really, deeply felt 
and important testimony.
    Let me just ask a few questions and then go to Mr. Cohen.
    Do you know of any other bill for naming the Great Hall 
that is pending in the House or Senate?
    Mr. Wamp. Not to my knowledge, no, Madam Chair.
    Mr. Jackson. Not to my knowledge, Madam Chair.
    Ms. Norton. Representative Jackson spoke of the symbolism 
of the stairs above the Great Hall and Lincoln, himself. The 
Ranking Member pointed to things in the Great Hall of which I 
am unfamiliar.
    Do you have any knowledge of what it was specifically that 
he was concerned about that would be in the Great Hall, as much 
as he is not here now? Perhaps you understand that.
    Mr. Wamp. Let me address that.
    The artist who actually did the Statue of Freedom above the 
dome is what he is talking about and the other things that that 
artist did in his life. I think, frankly, it was completely off 
track of where we are at and the focus of this hearing, because 
we are talking about Emancipation Hall being this great room, 
and if you have been there--and I have been there many, many, 
many times--you are looking right at the dome, which is 
exactly--now, the catafalque for Lincoln is also right off of 
this room, and that very display area, actually, would not be 
the most appropriate place to call Emancipation Hall, because 
it is already programmed in different areas.
    And if you listen to Tom Fontana, who is the expert who 
actually planned all this, they already have all of that 
programmed and exactly how it is supposed to step us up through 
the history of the legislative process. That whole space was 
designed to teach the visitor the legislative process and to 
tie the House and the Senate in with history, not a specific 
moment in history, like emancipation.
    That is why it is so important, I think, that when people 
come into this hall that it be referred to as Emancipation 
Hall, but that was really off the topic.
    Plus, let me say that, as to the idea that the theater 
might be called Emancipation Hall, it is not open to the 
public. There is no public access to the theater where the 
Congress is going to sit and meet. So he had two alternatives, 
neither of which is appropriate, frankly, respectfully, very 
respectfully, because Tom Fontana would tell you they have 
already programmed the way one of them is, which is to teach 
the visitor the legislative process, and the other one does not 
even have public access.
    Mr. Jackson. In addition to the ranking Republican's 
concerns and Mr. Wamp's concerns about what is appropriate in 
the room, you cannot separate subsequent freedom movements or 
freedom events from this central event of overcoming the 
limitations of States' rights and State-centered federalism 
over and against the idea of building a more perfect union for 
all Americans. It was the women's suffragettes and the 
abolitionists who would fight and lead a great struggle that 
would lend itself to the new language of the 13th Amendment 
that ultimately freed the slaves.
    This whole idea of Juneteenth in Texas is not that they did 
not get the word of the Emancipation Proclamation, but the 
Texans would argue that, as long as the Constitution allowed 
their State to maintain the institution of slavery, only a 13th 
Amendment to the Constitution could free them. And that is why 
not until 1865 did Texans get the idea that they could no 
longer maintain chattel slavery.
    Most importantly, when we started the Emancipation Hall and 
we recognized that suffragettes and abolitionists would fight 
for the language that would lead to the 15th Amendment and a 
great division in that movement would then lead the 
suffragettes to fight for their own language and their own 
amendment that would manifest itself in the 19th Amendment, 
many of these movements have their foundation in the struggle 
over ending the peculiar institution in the States. And so it 
is appropriate to have a hall named after the suffragettes. It 
is appropriate to have a hall named after other great 
movements.
    But the central movement that lays the foundation for those 
movements is the addition of the 13th, 14th and 15th Amendments 
and the role that these individuals played in this institution 
in constructing the building.
    Ms. Norton. There is a vote on. I am going to ask Mr. 
Graves if he has any questions. I am going to go to Mr. Cohen 
at this point.
    Mr. Cohen. Thank you, Madam Chair.
    I just want to thank the two gentlemen for their remarks, 
both of whom well addressed the subject.
    And particularly, not with any derogation or lessening to 
my distinguished colleague from Tennessee, but, Mr. Jackson, it 
is an honor for me to be in this body, and your speech was one 
of the best I have heard since I have been in it. And it made 
me very proud to be a Member of this House of Representatives.
    Mr. Jackson. Thank you, Mr. Cohen.
    Ms. Norton. Thank you, Mr. Cohen.
    On visiting the visitors' center, I asked if there was 
anything already in place. This was, of course, some months 
ago, and I was really saddened by what they pointed to--a kind 
of railing, a kind of token alongside--as if there were other 
events in the history of our country, far greater than building 
the Capitol, that were a symbolism of slavery across the face 
of this country from its beginning that could be captured in 
some way by some object in a room.
    We are going to have to try to clarify what it is, of 
course, that the Ranking Member brought up, and we are pleased 
to do that. I agree with the two Members who have worked so 
hard for this bill, and congratulate them. That delay is not in 
order because, this time, we really do think they are going to 
finish the Capitol Visitor Center, and we would like to give it 
a name.
    I close simply by saying, if you are a third-generation 
Washingtonian, there is always something personal in a 
discussion of slavery in the District of Columbia. My own 
great-grandfather did not arrive until the 1850s, but he 
arrived in the way so many African Americans did. He ran away 
from a slave plantation in Virginia, and, like so many slaves, 
he immediately found work on the streets because they were 
building the District of Columbia and there was not enough 
labor. That was one of the important reasons that slave labor 
in the prior decades was important to building the Capitol, 
especially since it required some skilled labor.
    The fact is, my friends, that every single public building 
in the District of Columbia until 1863 was built, in part, with 
slave labor, and you would never know it. May, at least, the 
visitors' convention center give us a larger-than-life 
opportunity to commemorate that fact.
    Mr. Jackson. May I make one observation? I did not even 
talk with Mr. Wamp about this. Because I am so concerned that 
this be done right, I do not know if it is appropriate, but at 
the appropriate time, I would be more than willing to make a 
unanimous-consent request to remove my name as one of the chief 
cosponsors and add you and Mr. Graves, if you are able to work 
it out, so that this reflects the kind of bipartisan approach 
that it deserves.
    Ms. Norton. Mr. Jackson, I am already on the bill. This is 
not about whose name is on the bill. The Congress has closed in 
around this notion out of courtesy.
    Of course, the Ranking Member has raised issues. Those 
issues must be responded to on the record, but the point is to 
move the bill forward. And I do not see any impediment, except 
that I think we have an obligation to look at what the Ranking 
Member raised.
    I am pleased to call this hearing to a close and facilitate 
everybody's rushing to the floor.
    Mr. Jackson. Thank you, Madam Chair.
    [Whereupon, at 2:57 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8171.003
    
    [GRAPHIC] [TIFF OMITTED] T8171.004
    
    [GRAPHIC] [TIFF OMITTED] T8171.005
    
    [GRAPHIC] [TIFF OMITTED] T8171.006
    
    [GRAPHIC] [TIFF OMITTED] T8171.007
    
    [GRAPHIC] [TIFF OMITTED] T8171.008
    
                                    

</pre></body></html>
